    Leon Snead & Company, P.C.
                       Suite 400
           416 Hungerford Drive
      Rockville, Maryland 20850




1
                                   TABLE OF CONTENTS

                                                                         Page

Executive Summary:

  Background	                                                              1
  Audit Objectives, Scope, and Methodology 	                               1
  Summary of Audit Results	                                                2
  Exit Conference	                                                         3

Audit Findings and Recommendations:

  Independent Auditors' Report on Financial Schedules 	                    5
  Independent Auditors' Report on Compliance with Laws and Regulations
    and Internal Control Over Financial Reporting 	                        7

Financial Schedules and Supplemental Information:

  Schedule A - Schedule of Award Costs (Award No. ESI-9553749) 	          12
  Schedule B - Schedule of Questioned Costs (Award No. ESI-9553749) 	     13
  Schedule C - Summary Schedules of Award Audited and Audit Results
                 (Award No. ESI-9553749)	                                 14

  Notes to Financial Schedules 	                                          15

Appendix A - Middlesex County College's Comments to the Report 	          16
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                                  EXECUTIVE SUMMARY

BACKGROUND

Middlesex County College (Middlesex) is located in Edison, New Jersey. Middlesex follows the
cost principles specified in Office of Management and Budget (OMB) Circular A-21, Cost
Principles for Educational Institutions and the Federal administrative requirements contained in
OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.

On September 1, 1995, the National Science Foundation (NSF) issued award ESI-9553749 to
Middlesex to fund a project, entitled, "New Jersey Center for Advanced Technological
Education," which was designed to restructure engineering technology education beginning in
secondary school through the associate degree. As part of the New Jersey Consortium for
Advanced Technological Education, Middlesex was to establish a center for engineering
technology education. The NSF award budget was $2,966,472 and Middlesex agreed to provide
cost sharing in the amount of $809,108 to support the project for the entire award period,
September 1, 1995 through August 31, 2001. Middlesex claimed NSF funding of $2,849,364
and cost sharing of $969,550.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

We have performed an audit of award ESI-9553749 issued by NSF to Middlesex for the period
September 1, 1995 to August 31, 2001. A summary of the audit results of this award are in
Schedule A - Schedule of Award Costs and Schedule C - Summary Schedules of Award Audited
and Audit Results.

The objectives of our audit were to determine whether:

1. Costs charged to the NSF award by Middlesex are allowable, allocable, and reasonable, in
   accordance with the applicable Federal cost principles and NSF award terms and conditions;
   and



                                            1
2. Middlesex's systems of internal controls are adequate to properly administer, account for,
   and monitor its NSF awards in compliance with NSF and Federal requirements.

Our audit was conducted in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
General of the United States of America, and the National Science Foundation Audit Guide
(September 1996), as applicable. These standards, and the National Science Foundation Audit
Guide, required that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed to NSF as presented in the Schedule of Award Costs (Schedule A), are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Schedule A. An audit also includes assessing the accounting
principles used and significant estimates made by Middlesex, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our opinion.

SUMMARY OF AUDIT RESULTS

An audit was performed on the financial reports submitted to NSF, as well as on the cost sharing
provided by Middlesex, for the NSF award audited. These costs and the results of our audit are
shown in Schedule A and are summarized as follows:

                          Source of                           Claimed          Questioned
     Award No.,           Funding               Budget         Costs             Costs

    ESI-9553749         NSF Funding        $2,966,472       $2,849,364         $ 15,489
                        Cost Sharing          809,108          969,550                0
                        Total Project      $3,775,580       $3,818,914         $_15,489

The costs claimed by Middlesex for the award expenditures were generally allowable, allocable,
and reasonable in accordance with the applicable Federal cost principles and the NSF award
terms and conditions, except for $15,489 in indirect costs. The approved NSF award budget
specified that Middlesex was allowed to charge indirect costs at a rate of 35 percent only to
salaries and wages. Middlesex erroneously claimed $15,489 of indirect costs on $44,254 of
claimed consultant costs. Furthermore, Middlesex should not have claimed indirect costs on the
claimed consultant costs because these consultants worked outside of the awardee's facility, and
therefore, did not incur any of its indirect costs. The claim was made in error and Middlesex's
internal control procedures were not sufficient to detect the error. As a result, we questioned
$15,489 of claimed indirect costs. (See Schedule of Questioned Costs, Schedule B.) Claiming
indirect costs for consultants is a direct violation of the approved award budget and can discredit
the integrity of an awardee's system for accounting for claimed costs and result in disallowed
indirect cost claims. In addition, Middlesex did not provide timely certification of its cost-
sharing for the third year of the award. At the time of our review, Middlesex officials could not
locate their cost-sharing records for the third year. However, Middlesex later obtained
supporting cost-sharing records from its sub-grantees and provided the certification
approximately one year after its due date to NSF. As a result of Middlesex not timely certifying
its cost sharing, NSF has less assurance that its funded program objectives had been met as
anticipated when the award was made. Except for these two weaknesses, we found that


                                            2
Middlesex's systems of internal controls were adequate to properly administer, account for, and
monitor its NSF awards in compliance with NSF and Federal requirements.

As a result of our findings described above, we recommend that NSF's Division Directors of the
Division of Acquisition and Cost Support (DACS) and the Division of Grants and Agreements
(DGA) ensure that Middlesex for its current and future NSF award(s) (1) maintain written
policies and procedures for charging direct and indirect costs to the NSF awards in compliance
with the approved NSF award budget, OMB Circular A-110, and the NSF Grant Policy Manual
(GPM), and (2) develop and implement written policies and procedures to ensure that the amount
of cost sharing is reported to NSF and certified on an annual and cumulative basis as part of its
annual progress and final project reports in accordance with the award terms and conditions and
the GPM 333.6 (b). Middlesex commented in its September 10, 2003 response to the draft report
that it agrees to maintain written policies and procedures for allocating indirect costs in
compliance with OMB Circular A-110 and the GPM for current and future NSF awards. Also,
Middlesex agrees to develop and implement written policies and procedures to ensure that the
amount of cost sharing is reported to NSF and certified on an annual and cumulative basis as part
of its annual progress and final project reports in accordance with award terms and conditions
and the GPM 333.6 (b). In addition, Middlesex further commented that in October 2002 its
Grant Development and Administration Manual was updated and includes policies and
procedures for the allocation, reporting, and certification requirements associated with cost
sharing.

EXIT CONFERENCE

An initial exit conference was held on November 2, 2001, at Middlesex's office in Edison, New
Jersey. Preliminary findings and recommendations, as well as other observations, were
discussed with those attending.

Representing Middlesex was:




                                            3
4
	




    National Science Foundation
    Office of Inspector General
    4201 Wilson Boulevard
    Arlington, Virginia 22230


             INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

    We were engaged to audit the costs claimed by Middlesex County College (Middlesex) to the
    National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) - Federal
    Share of Net Disbursements for the NSF award listed below. In addition, we have also audited
    the amount of cost sharing claimed on the award. The FCTRs, as presented in the Schedule of
    Award Costs (Schedule A), are the responsibility of Middlesex's management.              Our
    responsibility is to express an opinion on Schedule A based on our audit.

	            Award Number	                   Award Period	                   Audit Period	

               ESI-9553749                09/01/95 to 08/31/01           09/01/95 to 08/31/01

    We conducted our audit in accordance with auditing standards generally accepted in the United
    States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
    General of the United States of America, and the National Science Foundation Audit Guide
    (September 1996). These standards, and the National Science Foundation Audit Guide, require
    that we plan and perform the audit to obtain reasonable assurance about whether the financial
    schedules are free of material misstatement. An audit includes examining, on a test basis,
    evidence supporting the amounts and disclosures in the Schedule of Award Costs. An audit also
    includes assessing the accounting principles used and significant estimates made by Middlesex's
    management, as well as evaluating the overall financial schedules' presentation. We believe that
    our audit provides a reasonable basis for our opinion.

    The accompanying financial schedules were prepared in conformance with the requirements of
    the National Science Foundation Audit Guide as described in the Notes to the Financial
    Schedules, and are not intended to be a complete presentation of financial position in conformity
    with accounting principles generally accepted in the United States of America.

    Schedules A through C present costs in the amount of $15,489 that are questioned as to their
    allowability under the award agreement. Questioned costs are (1) costs for which there is
    documentation that the recorded costs were expended in violation of the law, regulations or


                                                5
specific conditions of the award, (2) costs that require additional support by the awardee, or (3)
costs that require interpretation of allowability by NSF's Division of Acquisition and Cost
Support (DACS).

We used non-statistical sampling to test the costs claimed by Middlesex for compliance with
Federal and NSF award requirements. Based on this sampling plan, questioned costs in this
report may not represent total costs that may have been questioned had all expenditures been
tested. In addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

NSF will make the final determination about these findings. The ultimate outcome of this
determination cannot presently be determined. Accordingly, no adjustment has been made to
costs claimed for any potential disallowance by NSF.

In our opinion, the financial schedule referred to above presents fairly, in all material respects,
the costs claimed on the FCTRs - Federal Share of Net Disbursements as presented in the
Schedule of Award Costs (Schedule A), for the period September 1, 1995 to August 31, 2001, in
conformity with the applicable Federal cost principles and NSF award terms and conditions and
on the basis of accounting policies described in the Notes to the Financial Schedules.

In accordance with Government Auditing Standards and the National Science Foundations Audit
Guide, we have also issued a report dated November 2, 2001, on our tests of Middlesex's
compliance with certain provisions of laws and regulations, our consideration of its internal
control over financial reporting, and the NSF award terms and conditions applicable to
Middlesex. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results
of our audit.

This report is intended solely for the information and use of the Middlesex's management, NSF,
the cognizant Federal agency for audit, the Office of Management and Budget, and the Congress
of the United States, and is not intended to be and should not be used by anyone other than these
specified parties.




Leon Snead & Company, P.C.
Rockville, Maryland 20850
November 2, 2001




                                            6
	




    National Science Foundation
    Office of Inspector General
    4201 Wilson Boulevard
    Arlington, Virginia 22230


        INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH LAWS AND
       REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL REPORTING

    We have audited the Schedule of Award Costs as presented in Schedule A, which summarized
    the financial reports submitted by Middlesex County College (Middlesex) to the National
    Science Foundation (NSF) for the award listed below. We have issued our report thereon dated
    November 2, 2001.

             Award Number                     Award Period                   Audit Period

               ESI-9553749                 09/01/95 to 08/31/01          09/01/95 to 08/31/01

    We conducted our audit in accordance with auditing standards generally accepted in the United
    States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
    General of the United States of America, and the National Science Foundation Audit Guide
    (September 1996). These standards, and the National Science Foundation Audit Guide, require
    that we plan and perform the audit to obtain reasonable assurance about whether the financial
    schedules are free of material misstatement.

                                            COMPLIANCE

    Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions
    is the responsibility of Middlesex's management. As part of obtaining reasonable assurance
    about whether the financial schedules are free of material misstatement, we performed tests of
    Middlesex's compliance with certain provisions of laws, regulations, and the NSF award terms
    and conditions, noncompliance with which could have a direct and material effect on the
    determination of the financial schedules' amounts. However, providing an opinion on overall
    compliance with such provisions was not an objective of our audit, and accordingly, we do not
    express such an opinion.

    The results of our tests of compliance disclosed two instances of noncompliance that are required
    to be reported under Government Auditing Standards and the National Science Foundation Audit
    Guide. (See Findings Nos. 1 and 2 below.) We considered these instances of noncompliance in


                                                7
forming our opinion of whether the Schedule of Award Costs (Schedule A) presented fairly, in all
material respects, the cost claimed by Middlesex on the Federal Cash Transactions Reports -
Federal Share of Net Disbursements for the period September 1, 1995 through August 31, 2001,
in conformity with NSF policies and procedures, and determined that this report does not affect
our report dated November 2, 2001, on the financial schedules.

Finding No. 1 - Indirect Costs

The approved NSF award budget specified that Middlesex was allowed to charge indirect costs
at a rate of 35 percent only to salaries and wages. Middlesex erroneously claimed $15,489 of
indirect costs on $44,254 of claimed consultant costs. Furthermore, Middlesex should not have
claimed indirect costs on claimed consultant costs because these consultants worked outside of
the awardee's facility, and therefore did not incur any of its indirect costs. As a result, we
questioned $15,489 of claimed indirect costs. The claim was made in error and Middlesex's
internal control procedures were not sufficient to detect, prevent, and/or correct such errors.
Claiming indirect costs for consultants is a direct violation of the approved award budget and can
discredit the integrity of an awardee's system for accounting for claimed costs and result in
disallowed indirect cost claims. (See Schedule of Questioned Costs, Schedule B).

Recommendation No. 1

We recommend that NSF's Division Directors of the Division of Acquisition and Cost Support
(DACS) and the Division of Grants and Agreements (DGA) ensure that Middlesex for current
and future NSF award(s) maintain written policies and procedures for charging direct and
indirect costs to NSF awards in compliance with the approved NSF award budget, Office of
Management and Budget (OMB) Circular A-110, and NSF's Grant Policy Manual (GPM).

Middlesex's Comment

Middlesex agreed to maintain written policies and procedures for allocating indirect costs in
compliance with OMB Circular A-110 and the GPM for current and future NSF awards.

Auditors' Response

Middlesex's comment is responsive to our recommendation.

Finding No. 2 - Cost-Sharing Certification

The award letter and GPM 333.6 (b) required Middlesex to provide NSF with certified reports of
cost sharing for each year of the award as part of its annual progress and final project reports.
Middlesex did not provide timely certification of its cost sharing for the third year of the award.
At the time of our review, Middlesex officials could not locate their cost-sharing records for the
third year. However, Middlesex later obtained supporting cost-sharing records from its sub-
grantees and provided the certification approximately one year after its due date to NSF. As a
result of Middlesex not timely certifying its cost sharing, NSF has less assurance that its funded
program objectives had been met as anticipated when the award was made.



                                             8
Recommendation No. 2

We recommend that NSF's Division Directors of DACS and DGA ensure that Middlesex for
current and future awards develop and implement written policies and procedures to ensure that
the cost sharing is reported and certified on an annual and cumulative basis as part of its annual
progress and final project reports in accordance with award terms and conditions and the GPM
333.6 (b).

Middlesex's Comments

Middlesex agreed to develop and implement written policies and procedures to ensure that the
amount of cost sharing is reported to NSF and certified on an annual and cumulative basis as part
of its annual progress and final project reports in accordance with award terms and conditions
and the GPM 333.6 (b). In addition, Middlesex further commented that in October 2002 its
Grant Development and Administration Manual was updated and includes policies and
procedures for the allocation, reporting, and certification requirements associated with cost
sharing.

Auditors' Response

Middlesex's comments are responsive to our recommendation.


                 INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of Middlesex is responsible for establishing and maintaining internal control.
In fulfilling this responsibility, estimates and judgments by management are required to assess
the expected benefits and related costs of internal control policies and procedures.            The
objectives of internal control are to provide management with reasonable, but not absolute
assurance that assets are safeguarded against loss from unauthorized use or disposition, and that
transactions are executed in accordance with management's authorization and recorded properly
to permit the preparation of financial schedules in accordance with accounting principles
prescribed by NSF. Because of inherent limitations in any internal control, errors or irregularities
may nevertheless occur and not be detected. Also, projection of any evaluation to future periods
is subject to the risk that procedures may become inadequate because of changes in conditions or
that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period
September 1, 1995 to August 31, 2001, we obtained an understanding of Middlesex's internal
control over financial reporting. With respect to internal control over financial reporting, we
obtained an understanding of the design of relevant policies and procedures and whether the
procedures have been placed in operation. Furthermore, we assessed control risk in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide an opinion on internal control. Accordingly, we do not express
such an opinion.




                                             9
Our consideration of internal control over financial reporting would not necessarily disclose all
matters related to internal control over financial reporting that might be reportable conditions
under standards established by the American Institute of Certified Public Accountants.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment,
could adversely affect the entity's ability to record, process, summarize, and report financial data
in a manner that is consistent with the assertions of management in the financial schedules. A
material weakness is a reportable condition in which the design or operation of one or more of
internal control elements does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial schedules being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. We noted no matters involving the internal control over financial reporting
and its operations that we consider to be material weaknesses as defined above. Because of
inherent limitations in internal control, misstatements due to error or fraud may nevertheless
occur and not be detected.

This report is intended solely for the information and use of the Middlesex's management, NSF,
the cognizant Federal agency for audit, the OMB, and the Congress of the United States, and is
not intended to be and should not be used by anyone other than these specified parties.




Leon Snead & Company, P.C.
Rockville, MD 20805
November 2, 2001




                                            10
11
                                                                                                             Schedule A


                                                 Middlesex County College
                                 National Science Foundation Award Number ESI-9553749
                                                 Schedule of Award Costs
                                       From September 1, 1995 to August 31, 2001
                                                          Final




(A)   The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report -
      Federal Share of Net Disbursements as of the quarter ended September 30, 2001. Claimed costs reported above are taken
      directly from Middlesex's books of accounts.

      See Schedule B and the accompanying notes to this financial schedule.




                                                                12
	




                                                                                       Schedule B


                                     Middlesex County College
                     National Science Foundation Award Number ESI-9553749
                                   Schedule of Questioned Costs
                               September 1, 1995 to August 31, 2001

    Indirect Costs

    We questioned $15,489 of the claimed indirect costs because Middlesex erroneously claimed
    indirect costs on consultant costs for consultants that worked independently and outside the
    awardee's facility, and therefore did not incur any of its indirect cost. The approved NSF award
    budget specified that Middlesex was allowed to charge indirect costs at a rate of 35 percent only
    to salaries and wages. This condition occurred because Middlesex did not have written policies
    and procedures that would detect, prevent, and/or correct such errors. Claiming indirect costs for
    consultants is a direct violation of the approved award budget and can discredit the integrity of
    an awardee's system for accounting for claimed costs and result in disallowed indirect cost
    claims. We calculated the questioned indirect costs as follows:

                 Portion of Claimed Consultant Costs                $44,254 (a)

                 Budgeted/Allowable Indirect Cost Rate                  35% (b)
                 Questioned Indirect Costs (a) x (b)                $15,489




                                               13
                                                                                                 Schedule C


                             Middlesex County College
                 Summary Schedules of Award Audited and Audit Results
                      From September 1, 1995 to August 31, 2001

Summary of Award Audited

       Award Number                         Award Period                          Audit Period

         ESI-9553749                      09/01/95 - 08/31/01                 09/01/95 - 08/31/01

 Award Number           Type of Award
                                                                   Award Description

   ESI-9553749               Grant          The award was issued to fund a project, entitled, "New
                                            Jersey Center for Advanced Technological Education,"
                                            which was designed to restructure engineering technology
                                            education beginning in secondary school through the
                                            associate degree.

Summary of Questioned Costs by Award

 NSF Award Number
                                Award Budget                Claimed Costs           Questioned Costs

     ESI-9553749                  $2,966,472                   2,849,364                $15,489

Summary of Questioned Costs, Noncompliance Issues, and Internal Control Weaknesses by Explanation

                                                                                             Internal
                 Condition                              Questioned     Non-compliance        Control
                                                       Cost Amount                         Weaknesses
                                                                                           (Reportable/
                                                                                             Material
                                                                                           Weakness?)

We questioned $15,489 of the claimed                     $15,489            Yes                   No
indirect costs. The approved NSF award
budget specified that Middlesex was allowed
to charge indirect cost at a rate of 35 percent
to the salaries and wages. Middlesex
erroneously claimed indirect costs on
$44,254 of consultant costs for consultants
that worked independently and outside the
awardee's facility, and therefore did not incur
any of its indirect cost.




                                                  14
                                 Middlesex County College
                                Notes to Financial Schedules
                          From Sepember 1, 1995 to August 31 2001

Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
NSF. The basis of accounting used in the preparation of these reports differs from generally
accepted accounting principles. The following summarizes these differences:

       A. Equity

       Under the terms of the award, all funds not expended according to the award agreement
       and budget at the end of the award period are to be returned to NSF. Therefore, the
       awardee does not maintain any equity in the award and any excess of cash received from
       NSF over final expenditures is due back to NSF.

       B. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the expenses
       reflected in the Statement of Award Costs include the cost of equipment purchased
       during the period rather than a provision for depreciation.

       The equipment acquired is owned by Middlesex while used in the program for which it
       was purchased or in other future authorized programs. However, NSF has the
       reversionary interest in the equipment. Its disposition, as well as the ownership of any
       proceeds there from, is subject to Federal regulations.

       C. Inventory

       Minor materials and supplies are charged to expense during the period of purchase. As a
       result, no inventory is recognized for these items in the financial schedules.

The departure from generally accepted accounting principles allows NSF to properly monitor
and track actual expenditures incurred by the awardee. The departure does not constitute a
material weakness in internal controls.

Note 2: Income Taxes

Middlesex County College was established in 1966 as a unit of the New Jersey Master Plan for
Higher Education and became part of a statewide network of 19 county colleges. Middlesex
County College is exempt from Federal income taxes under the Internal Revenue Code. It is also
exempt from New Jersey franchise or income tax.


                                            15
16
17
MIDDLESEX COUNTY COLLEGE'S COMMENTS TO THE REPORT




                       16
This is in response to your letter dated 15, August 2003 requesting our comments on the
findings and recommendations to be included in the final audit report, The indirect cost allocation
error against consultant costs in the amount of $15,489 was brought to our attention during the
audit. The consultants would have had to work at the campus location for indirect costs to
apply. In reference to the second finding on the late filing of the Cost Sharing Certification, the
cost sharing records could not quickly be placed but were received from our partners and
submitted to NSF per the auditor's request.

Middlesex County College agrees to (1) maintain written policies and procedures for
allocating indirect costs in compliance with OMB Circular A-110 and the NSF Grant Policy
manual for current and future NSF awards and (2) to develop and implement written
policies and procedures to ensure that the amount of cost sharing is reported to NSF and
certified on an annual and cumulative basis as part of its annual progress and final project
reports in accordance with the award terms and conditions and the GPM 333.6(b). In
October 2002 the Grants Development and Administration Manual was updated and
includes policies and procedures for the allocation, reporting and certification requirements
associated with cost sharing
Cc: Susan K. Perkins
